<html>
<title> - TO LEAD OR TO FOLLOW: THE NEXT GENERATION INTERNET AND THE TRANSITION TO IPv6</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 TO LEAD OR TO FOLLOW: THE NEXT GENERATION INTERNET AND THE TRANSITION 
                                TO IPv6

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 29, 2005

                               __________

                           Serial No. 109-41

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-510                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 29, 2005....................................     1
Statement of:
    Curran, John, chairman, American Registry for Internet 
      Numbers; Jawad Khaki, corporate vice president, Microsoft 
      Corp.; Stan Barber, vice president, Verio, Inc.; and Alex 
      Lightman, chief executive officer, Charmed Technologies, 
      Inc........................................................    56
        Barber, Stan.............................................    83
        Curran, John.............................................    56
        Khaki, Jawad.............................................    65
        Lightman, Alex...........................................    91
    Evans, Karen, Administrator, Electronic Government and 
      Information Technology, Office of Management and Budget; 
      David Powner, Director, Information Technology Management 
      Issues, Government Accountability Office; Keith Rhodes, 
      Chief Technologist and Director, Center for Technology and 
      Engineering, Government Accountability Office; George 
      Wauer, Director, Architecture and Interoperability, Office 
      of the Assistant Secretary of Defense for Networks and 
      Information Integration and Office of the Chief Information 
      Officer, U.S. Department of Defense, accompanied by Major 
      General Dennis Moran, Vice Director, Command, Control, 
      Communications and Computer Systems, Joint Chiefs of Staff, 
      U.S. Department of Defense.................................    11
        Evans, Karen,............................................    11
        Powner, David............................................    18
        Rhodes, Keith............................................    45
        Wauer, George............................................    45
Letters, statements, etc., submitted for the record by:
    Barber, Stan, vice president, Verio, Inc., prepared statement 
      of.........................................................    86
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   109
    Curran, John, chairman, American Registry for Internet 
      Numbers, prepared statement of.............................    59
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Evans, Karen, Administrator, Electronic Government and 
      Information Technology, Office of Management and Budget, 
      prepared statement of......................................    14
    Khaki, Jawad, corporate vice president, Microsoft Corp., 
      prepared statement of......................................    67
    Lightman, Alex, chief executive officer, Charmed 
      Technologies, Inc., prepared statement of..................    94
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   108
    Powner, David, Director, Information Technology Management 
      Issues, Government Accountability Office, prepared 
      statement of...............................................    19
    Wauer, George, Director, Architecture and Interoperability, 
      Office of the Assistant Secretary of Defense for Networks 
      and Information Integration and Office of the Chief 
      Information Officer, U.S. Department of Defense, prepared 
      statement of...............................................    47
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8

 
 TO LEAD OR TO FOLLOW: THE NEXT GENERATION INTERNET AND THE TRANSITION 
                                TO IPv6

                              ----------                              


                       WEDNESDAY, JUNE 29, 2005,

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:15 p.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Gutknecht, 
Dent, Waxman, Cummings, Kucinich, Higgins and Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Chas 
Phillips, policy counsel; Rob White, press secretary; Drew 
Crockett, deputy director of communications; Victoria Proctor, 
senior professional staff member; Teresa Austin, chief clerk; 
Sarah D'Orsie, deputy clerk; Leneal Scott, computer systems 
manager; Kristin Amerling, minority general counsel; Nancy 
Scola, minority professional staff member; and Earley Green, 
minority chief clerk.
    Chairman Tom Davis. The committee will come to order.
    I apologize for starting late, we were supposed to have a 
vote on the floor. I was over there so I could leave at the 
beginning of the vote and they ended up with just a voice vote.
    Welcome to today's hearing on the Next Generation Internet 
and the transition to Internet protocol version 6 [IPv6].
    Nearly 30 years ago in a Department of Defense lab, the 
Internet was born. Originally designed to facilitate 
communications after a nuclear strike, as the protocols were 
tested, refined and implemented, people began to recognize the 
possibilities for far broader applications. Today, these 
protocols underpin the Internet.
    American ingenuity developed, fostered, and fielded these 
simple open protocols to solve a narrow set of problems, but 
this seemingly small network solution has sparked a global 
revolution in communications. Over the past decade, cyberspace 
has grown into a dynamic nervous system that controls our 
Nation's critical cyber and physical infrastructures.
    Within an hour's drive of Fairfax County, there are about 
one quarter of all Internet Service Providers on the entire 
planet. About a quarter of all the Internet packets in the 
world are going through a hub in northern Virginia. If you 
drive down the Dulles Access Road, you can see the physical 
impact of the Internet on Virginia, but the current Internet, 
and the protocols and networks that underpin it, may have 
reached its limits.
    Internet protocol version 6 [IPv6], offers benefits for 
expanded addressing, greater security, and new products, 
services, and missions for Next Generation Internet 
applications. However, it presents several challenges 
including: one, understanding the international implications; 
two, preparing the Federal Government; and three, ensuring a 
secure transition.
    Not surprisingly, interest in IPv6 is gaining momentum 
around the world, particularly areas that have limited IPv4 
address space to meet their industry and consumer 
communications needs. Regions that have limited IPv4 address 
space such as Asia and Europe have undertaken aggressive 
efforts to deploy IPv6. Asian countries have been aggressive in 
adopting IPv6 technology, because Asia controls only about 9 
percent of the allocated IPv4 addresses, and yet has more than 
half of the world's population.
    Asian governments have invested hundreds of millions of 
dollars in IPv6 technology. China has been extremely aggressive 
and Japan has set up an IPv6 Promotion Council, using tax 
incentives to encourage research and adoption of IPv6 by its 
private sector.
    Europe currently has a task force that has the dual mandate 
of initiating country and regional IPv6 task forces across 
European states and seeking global cooperation around the 
world, and Europe's Task Force and the Japanese IPv6 Promotion 
Council forged an alliance to foster worldwide deployment.
    Here at home, challenges such as procurement, information 
technology management, and modernization are often addressed 
deliberately by the Federal Government and change often takes 
years to implement, but these are the challenges we take up on 
this committee.
    Federal Government IT expenditures are on track to surpass 
$65 billion in fiscal year 2006, making the Federal Government 
once again the largest purchaser of IT products and services in 
the world. In addition, a recent report forecasts that IT 
spending will continue to rise throughout the decade, reaching 
over $90 billion in fiscal year 2010. With this buying power, 
we need to make sure that the best and most secure technology 
is a priority when the Government acquires IT goods and 
services.
    I believe that we all want the United States to have the 
world's best information technology infrastructure, including 
maintaining the world's best Internet industry. I believe we 
all want U.S. defense capabilities to perform with maximum 
effectiveness and efficiency, and to realize the full potential 
of net-centric warfare.
    I believe we all want the best Homeland Security systems, 
including cameras, sensors, and first responder systems 
intelligently integrated together. I believe we all want 
fiscally responsible Federal spending, including spending on 
information infrastructures that will deliver multiple returns 
on investment and preserve taxpayer dollars.
    Today, we will hear about Federal efforts to transition to 
IPv6. Our purpose here is to learn from the public and private 
sectors, to hear if IPv6 can help us achieve long-term 
economic, defense, homeland security, and technological 
leadership. If it can play a part in reaching those goals, then 
I want to know what support the Government Reform Committee, 
the Congress, and the U.S. Federal Government need to provide.
    I also want to learn about the risks. Every day brings news 
of another computer intrusion or data theft. I hope to hear 
about the security risks that exist under the current protocol, 
how IPv6 might address these risks, and whether the transition 
presents its own risks.
    Finally, I hope to learn if the United States is at 
competitive risk with respect to the Next Generation Internet. 
My committee held a hearing recently about the lengths to which 
the Chinese government would go to make sure that only Chinese 
software is purchased by Chinese government agencies. The 
Chinese government not long ago announced that CERNET2, the 
first network based on pure IPv6 technology, was going into 
formal operation. An official from China's National Development 
Reform Commission said China's Next Generation Internet will 
bring huge benefits to their national economy and increase the 
country's competitiveness in national defense, economy, science 
and technology.
    Last year, I asked GAO to look at IPv6 and its implications 
for the Federal Government. Today, we are here, in part, to 
review their report, which highlights the fundamental 
challenges facing the Federal agencies, the White House, and 
Congress.
    However, to reap the benefits from IPv6 Federal agencies 
must first begin to plan and develop requirements that will 
take full advantage of what the new protocol offers. I hope 
that the Office of Management and Budget will continue its 
leadership role in information policy and begin to address some 
essential issues, including how much IP address space the 
Federal agencies may require, whether the Federal Government is 
ready for the transition, and how much it will cost.
    At this stage, I am gathering input on IPv6. I was pleased 
to receive a copy of the Department of Defense IPv6 Transition 
Plan recently. I am looking forward to receiving the Department 
of Commerce's report as soon as possible, and see how IPv6 can 
help America's economy and help America's exports.
    The vast majority of the technology we know and use is 
rooted in the United States. Many of these innovations were a 
result of the ideas and hard work from individuals who came 
from other countries to live, to work, or to be educated, some 
of whom are here today.
    America draws the best and the brightest from around the 
globe, they produce their best work here, and then we share 
those efforts with the rest of the world. I am confident that 
we can meet the challenge of this transition.
    I would now recognize the distinguished ranking member, Mr. 
Waxman, for an opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.001
    
    [GRAPHIC] [TIFF OMITTED] T2510.002
    
    [GRAPHIC] [TIFF OMITTED] T2510.003
    
    Mr. Waxman. Mr. Chairman, thank you for holding today's 
hearing on Internet protocol version 6, what is often called 
the ``Next Generation Internet.''
    The architecture of the Internet was first developed more 
than 30 years ago, but the Internet of today is far different 
than it was then. Whereas the early Internet joined together a 
small number of computers, the Internet today connects desktop 
computers, laptop computers, network servers, handheld 
Blackberries, cell phones and cars. Even dishwashers and 
refrigerators are beginning to go online.
    The Internet is not yet breaking down under the strain, but 
there are limitations that need to be addressed. The current 
system has the capacity to connect together 4 billion different 
computers and devices at any one time. This may seem like a 
lot, but consider the computers and cell phones one typical 
family might own today, or all the desktops, laptops, and 
Blackberries in use in the Federal Government.
    Four billion seems even smaller in light of the growing 
Internet use worldwide. In fact, it is only because of network 
administrator ingenuity that the current protocol's 
technological limitations are not paralyzing the Internet.
    The Next Generation Internet eliminates major existing 
technological limitations. This new system increases access to 
the Internet exponentially while also offering the added 
benefits of more sophisticated security and improved 
connectivity.
    Consumers will reap these benefits, but it is the Federal 
Government that may well be the greatest beneficiary. A recent 
GAO study found that Next Generation Internet could help DOD to 
create more advanced weapons and information systems. Other 
potential uses include wireless border security sensors and 
interoperable networks for first-responders.
    Unfortunately, the Government is not taking full advantage 
of this opportunity. GAO found that few agencies beyond the 
Defense Department have even begun to ready themselves for the 
Next Generation Internet. Meantime, the rest of the world is 
taking Next Generation Internet seriously. China is building a 
nationwide network that will run on the new system. India's 
private sector is actively moving to take advantage of these 
new technologies.
    The Next Generation Internet is coming. I look forward to 
hearing from witnesses about what we can do to take the lead in 
developing the Internet as we did 30 years ago or we can wait 
for this evolution to pass us by and then play catch up.
    Thank you, Mr. Chairman, for the opportunity to make an 
opening statement. I look forward to the testimony of the 
witnesses today.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.004
    
    [GRAPHIC] [TIFF OMITTED] T2510.005
    
    [GRAPHIC] [TIFF OMITTED] T2510.006
    
    Chairman Tom Davis. Mr. Waxman, thank you very much.
    The Members will have 7 days to submit opening statements 
for the record.
    I will now recognize our first panel, a very distinguished 
panel. We have: the Honorable Karen Evans, Administrator, 
Electronic Government and Information Technology, Office of 
Management and Budget; David Powner, Director, Information 
Technology Management Issues, Government Accountability Office; 
Keith Rhodes, Chief Technologist and Director, Center for 
Technology and Engineering, Government Accountability Office; 
George Wauer, Director, Architecture and Interoperability, 
Office of the Assistant Secretary of Defense for Networks and 
Information Integration and Office of the Chief Information 
Officer, U.S. Department of Defense. Mr. Wauer is accompanied 
by Major General Dennis Moran, Vice Director, Command, Control, 
Communications and Computer Systems, Joint Chiefs of Staff, 
U.S. Department of Defense. General Moran, thank you for being 
with us today.
    It is the policy of the committee to swear all witnesses 
before you testify.
    [Witnesses sworn.]
    Chairman Tom Davis. We will start the testimony with Ms. 
Evans. Karen, you know the rules. We try to keep it to 5 
minutes. Your entire statement is in the record. Questions will 
be based on your entire statement but you have 5 as a summary.
    Karen, thanks a lot for being with us again.

STATEMENTS OF KAREN EVANS, ADMINISTRATOR, ELECTRONIC GOVERNMENT 
 AND INFORMATION TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET; 
   DAVID POWNER, DIRECTOR, INFORMATION TECHNOLOGY MANAGEMENT 
 ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE; KEITH RHODES, CHIEF 
     TECHNOLOGIST AND DIRECTOR, CENTER FOR TECHNOLOGY AND 
 ENGINEERING, GOVERNMENT ACCOUNTABILITY OFFICE; GEORGE WAUER, 
  DIRECTOR, ARCHITECTURE AND INTEROPERABILITY, OFFICE OF THE 
  ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND INFORMATION 
 INTEGRATION AND OFFICE OF THE CHIEF INFORMATION OFFICER, U.S. 
  DEPARTMENT OF DEFENSE, ACCOMPANIED BY MAJOR GENERAL DENNIS 
  MORAN, VICE DIRECTOR, COMMAND, CONTROL, COMMUNICATIONS AND 
  COMPUTER SYSTEMS, JOINT CHIEFS OF STAFF, U.S. DEPARTMENT OF 
                            DEFENSE

                    STATEMENT OF KAREN EVANS

    Ms. Evans. Thank you for inviting me to speak about the 
Federal Government's efforts in preparing for the transition to 
Internet protocol version 6. This afternoon, I would like to 
briefly identify the steps we are taking in preparation for 
transition.
    As I mentioned in my April 7, 2005 testimony before this 
committee regarding our efforts to safeguard the Government's 
information systems, late last fall OMB directed the agencies 
to provide a preliminary report on their planning activities 
for the transition to IPv6. Only the Department of Defense had 
undertaken any significant effort in this area.
    Given the lack of government-wide progress and our concern 
regarding the complexities of transition, we recognize the need 
to begin developing a comprehensive transition planning guide 
and process.
    We are about to take the first step and issue a policy 
memorandum providing guidance to the agencies to ensure an 
orderly and secure transition to IPv6. The purpose of the 
guidance will be to ensure effective planning and to raise the 
level of awareness and urgency of preparing for IPv6.
    The overarching challenge facing us is ensuring continued, 
uninterrupted functionality of Federal agencies during the 
transition while providing continued and improved information 
assurance. This will require major changes in the architecture 
of many agency networks. Since there is a large embedded base 
of IPv4-compatible equipment and applications, transitioning to 
IPv6 will also require large capital investments and labor 
resources. While the challenges are significant, they are not 
insurmountable, especially if we approach them methodically and 
in phases. The guidance will lay out five important actions the 
agencies should take.
    First, agencies will have to familiarize themselves to the 
transitions issues by reviewing the GAO report, the Commerce 
report, and particularly the Department of Homeland Security's 
US-CERT advisory of security issues concerning IPv6. Since IPv6 
is already present in many Federal agency networks, it is 
important that agencies begin addressing the security risks 
associated with IPv6 now.
    Second, agencies will have to assign a specific individual 
to lead and coordinate agency planning. This person will be 
responsible for monitoring, enforcing, and reporting on the 
transition and implementation of IPv6 within the agency.
    Third, agencies will develop an inventory of existing IP 
capable devices and technologies. To ensure an orderly 
transition from IPv4 to IPv6, we must establish a baseline and 
determine the size of the problem. While we know IPv6 
technologies are deployed throughout the Government, but like 
other organizations, we do not know specifically which ones, 
how many there are, or precisely where they are located. We are 
planning for each agency to file a report of their inventory of 
IP capable devices and technologies to OMB in the first quarter 
of fiscal year 2006.
    Fourth, agencies will conduct an impact analysis to 
determine fiscal and operational impacts and risks during the 
transition to IPv6. We are planning for each agency to report 
the results of this impact analysis to OMB in the first quarter 
of fiscal year 2006, and it should include analysis on cost and 
risk. For cost, the agencies must report on estimates for 
planning, infrastructure acquisition, above and beyond normal 
expenditures, training, and risk mitigation.
    Fifth, the policy will direct the CIO Council to develop 
before the end of the calendar year, more detailed IPv6 
implementing guidance. It will include guidance for developing 
detailed prioritized schedules and milestones, integrating IPv6 
with the agency enterprise architecture, developing necessary 
IPv6-related policies and compliance mechanisms, training 
material, and test plans for IPv6 compatibility and 
interoperability. To the extent the agencies are currently 
capable of addressing the elements of the future CIO Council 
guidance, they have been instructed to begin doing so now. We 
will also use the OMB EA Assessment Framework to measure the 
degree to which agencies are effectively performing this 
planning element.
    Our policy will also set June 2008 as the date by which all 
agencies' infrastructure, network backbones, must be using IPv6 
and agency networks must interface with this infrastructure. 
Once the network backbones are ready, the applications and 
other elements will follow. Setting this firm date is necessary 
to maintain focus on this important issue. Overall the actions 
set out in our policy will begin to address the many challenges 
that come with IPv6 transition.
    I would like to take one moment to discuss one aspect of 
the implementation guidance. Later in this hearing, you may be 
hearing testimony that says IPv6 poses a problem associated 
with the capability called tunneling. In fact, tunneling is 
extremely widely used throughout the Government and industry 
and facilitates cost effective and safe communications.
    During the question period, I would be happy to answer your 
questions about the aspect of IPv6 tunneling and how it could 
be controlled and any other questions you have.
    Thank you for this opportunity to talk about the 
administration's strategy.
    [The prepared statement of Ms. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.007
    
    [GRAPHIC] [TIFF OMITTED] T2510.008
    
    [GRAPHIC] [TIFF OMITTED] T2510.009
    
    [GRAPHIC] [TIFF OMITTED] T2510.010
    
    Chairman Tom Davis. Thank you very much, Ms. Evans.
    Mr. Powner.

                   STATEMENT OF DAVID POWNER

    Mr. Powner. We appreciate the opportunity to testify on 
Internet protocol version 6.
    With me today is Keith Rhodes, GAO's Chief Technologist who 
will discuss the security aspects of transitioning to this new 
protocol.
    The initial benefits of IPv6 is that it will immediately 
remedy the shortage of worldwide Internet addresses and will 
greatly increase the number of devices that can connect to the 
Internet. IPv6 is clearly gaining momentum globally, especially 
in regions such as Asia where address space is limited and 
concerns exist about the U.S.'s adoption of the new protocol as 
it pertains to global competitiveness.
    This morning, I would like to leave you with three thoughts 
before Mr. Rhodes discusses the need to mitigate security 
transition risks.
    First, there are many benefits to the new protocol; second, 
Government transition has been slow; and third, key planning 
efforts are essential. In addition to the increased address 
space that will accommodate the growing number of users and 
mobile devices, IPv6 will, among other things, allow for an 
efficient and possibly faster routing, simplify network 
administration and enhance IP security by improving 
authentication and confidentiality of data sent over the 
Internet.
    The Department of Defense plans to utilize IPv6 features. 
For example, it envisions our future soldiers equipped with 
multiple IP addresses for communications and to monitor vital 
signs. Other Federal agencies, for the most part, have not 
initiated IPv6 planning efforts. Because of this, we 
recommended to OMB that they instruct Federal agencies to begin 
addressing key planning efforts. These include developing 
inventories and assessing risks, creating business cases and 
identifying timelines and methods for transition.
    Mr. Chairman, we have been working with the Office of 
Management and Budget and we recognize Ms. Evans' efforts that 
earlier this year called for Federal agencies to update 
strategic plans, enterprise architectures and acquisition 
strategies to address IPv6 transition. Although Ms. Evans' 
statement is encouraging, more effective leadership is needed.
    In addition, we also recommended that Federal agencies take 
immediate action to address near term security risks. 
Ironically, this new protocol that in the long term will 
improve network security creates several near term 
vulnerabilities if not properly managed, as Mr. Rhodes will now 
demonstrate.
    Before turning it over, Mr. Chairman, I would like to thank 
you for your leadership in this area and for jump starting the 
Federal Government's transition to this new protocol.
    [The prepared statement of Mr. Powner follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.011
    
    [GRAPHIC] [TIFF OMITTED] T2510.012
    
    [GRAPHIC] [TIFF OMITTED] T2510.013
    
    [GRAPHIC] [TIFF OMITTED] T2510.014
    
    [GRAPHIC] [TIFF OMITTED] T2510.015
    
    [GRAPHIC] [TIFF OMITTED] T2510.016
    
    [GRAPHIC] [TIFF OMITTED] T2510.017
    
    [GRAPHIC] [TIFF OMITTED] T2510.018
    
    [GRAPHIC] [TIFF OMITTED] T2510.019
    
    [GRAPHIC] [TIFF OMITTED] T2510.020
    
    [GRAPHIC] [TIFF OMITTED] T2510.021
    
    [GRAPHIC] [TIFF OMITTED] T2510.022
    
    [GRAPHIC] [TIFF OMITTED] T2510.023
    
    [GRAPHIC] [TIFF OMITTED] T2510.024
    
    [GRAPHIC] [TIFF OMITTED] T2510.025
    
    [GRAPHIC] [TIFF OMITTED] T2510.026
    
    [GRAPHIC] [TIFF OMITTED] T2510.027
    
    [GRAPHIC] [TIFF OMITTED] T2510.028
    
    [GRAPHIC] [TIFF OMITTED] T2510.029
    
    [GRAPHIC] [TIFF OMITTED] T2510.030
    
    [GRAPHIC] [TIFF OMITTED] T2510.031
    
    [GRAPHIC] [TIFF OMITTED] T2510.032
    
    [GRAPHIC] [TIFF OMITTED] T2510.033
    
    [GRAPHIC] [TIFF OMITTED] T2510.034
    
    [GRAPHIC] [TIFF OMITTED] T2510.035
    
    [GRAPHIC] [TIFF OMITTED] T2510.036
    
                   STATEMENT OF KEITH RHODES

    Mr. Rhodes. What I am going to explain to you is an exploit 
that we have used when we are testing Federal departments and 
agencies and one we have proven and documented in our own 
laboratory.
    The first slide is a typical IPv4 configuration. You see a 
router, intrusion detection, a firewall, all working together 
to protect a system that is connected to the Internet.
    The intruder on the left sends the target agency on the 
right a specially crafted e-mail. The targeted user opens the 
e-mail thinking it is a normal e-mail. Let me note here this 
attack does not require the user to double click on an 
attachment as is common with most MOU ware. If the e-mail is 
Web-based, that is, it is written in the language of the World 
Wide Web, the hypertext mark up language, then even if the user 
just previews it in the window in their mail system, the attack 
will launch.
    The e-mail looks normal to the target but deep inside the 
computer, the IPv6 stack is turned on, given an address and a 
mission. The mission is to send a shell back to the intruder 
using IPv6 inside IPv4. This means that the shell request is 
sent back to the intruder via tunnel which is carried by the 
IPv4 packets. The shell request is totally invisible to the 
firewall, the intrusion detection system and the Internet, just 
some normal looking IPv4 packets.
    Now there is a new network, a dedicated network between the 
intruder and the target agency unseen by most current firewall 
and IDS technologies.
    As the intruder explores the target agency, the intruder's 
software converts the PC to a router and many other computers 
answer the IPv6 call. Now there is a covert IPv6 network 
invisible to the target agency.
    My final point is this could have been avoided using 
available technology and best practices, for example, closing 
Port 41 to outbound traffic on your firewall. The transition to 
IPv6 can be done safely and securely with proper precautions. 
Otherwise, the intruders are out there and they know how to do 
this.
    Thank you, Mr. Chairman, and I will accept any questions.
    Chairman Tom Davis. Thank you very much.
    Mr. Wauer.

                  STATEMENT OF GEORGE G. WAUER

    Mr. Wauer. Good afternoon. Thank you for the invitation to 
testify before the committee.
    In the interest of time, I will submit my formal written 
testimony for the record. I would, however, like to make the 
following key points.
    The Department of Defense views version 6 as a critical 
enabler in achieving our vision of global net-centric 
operations. Modifying version 4 to accomplish this version 
would have been, at best, problematical. Version 6 provides 
specific features that can make the net-centric vision a 
reality.
    In June 2003, the Department established the goal of 
transitioning to version 6 by 2008. We are defining phase 
timelines that include specific system implementations that 
address increasingly complex end-to-end functionality. However, 
due to the critical nature of the Department's mission, it is 
imperative that this transition not imperil our current 
operational capabilities.
    Our strategy and the position of the Department is to 
complete the transition with minimal additional costs by using 
phase timelines and relying primarily on already-scheduled and 
planned technology refreshments. In fact, since October 2003, 
we have required version 6 capability on all new acquisitions 
and procurements. This strategy allows the Department to 
leverage ongoing commercial and industry version 6 efforts.
    However, even with this transition strategy, there will be 
some additional costs for this major technology insertion. 
These additional costs are expected to be in the area of 
planning, engineering, technical assessments and training. 
Implementing version 6 across the Department is complex and 
presents many challenges. Careful and early planning has been 
necessary to ensure the transition to version 6 is accomplished 
in an effective and controlled manner. Version 6 must not be 
disruptive to the everyday, strategic tactical and business 
operations of the Department.
    DOD is firmly committed to the expeditious transition to 
version 6 in a manner that is affordable and protects the 
interoperability, security and performance of the existing 
requirements we have on our plate.
    Thank you and I appreciate the committee's interest in the 
transition for the Department and I would be happy to answer 
any questions.
    [The prepared statement of Mr. Wauer follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.037
    
    [GRAPHIC] [TIFF OMITTED] T2510.038
    
    [GRAPHIC] [TIFF OMITTED] T2510.039
    
    [GRAPHIC] [TIFF OMITTED] T2510.040
    
    Chairman Tom Davis. Ms. Evans, let me start with you. IPv6 
raises some very broad and very serious policy issues as you 
addressed. Some of these issues are squarely within OMB. For 
example, agencies are planning for IPv6 and securing their 
current systems.
    Other issues such as the international challenges, economic 
competitiveness, lack of IPv6 firewalls for classified systems 
go beyond the purview of OMB and the CIO Council. What is the 
administration doing to organize and address this challenge?
    Ms. Evans. First off, there are a couple things in there 
but more importantly, everything we do within the 
administration is coordinated within the Executive Office of 
the President. As we move forward and take on these issues, 
they are coordinated through the councils that exist within the 
Executive Office of the President.
    We have taken on this issue, my policy and how it impacts 
the Federal agencies has also been looked at going forward, so 
I can talk about what I am doing to affect the Federal agencies 
overall. I would be happy to take back any other specific 
questions that you have and get answers for the record.
    Chairman Tom Davis. Do we have any ballpark estimate of the 
cost and the labor requirements of the transition?
    Ms. Evans. Right now, based on the analysis we did, it 
could grow by an order of magnitude. This is the reason why we 
are asking for the agencies to prepare these reports and these 
documents so that we can get an estimate of what it is going to 
cost.
    For the most part, and I believe my colleagues from DOD 
have already stressed this, a lot of the costs as far as 
hardware, software or the products we buy, they are already 
IPv6 capable and enabled and have that capability. The cost we 
want to make sure we have a true handle on deal with the 
applications that are currently in place. They may be using 
something very specific to IPv4. That is why I agree with 
everything that has been said so far. The planning efforts will 
be very critical to get a good handle on the cost estimates.
    Chairman Tom Davis. Given the expenditures by the Europeans 
and the Asians on this, which far out-strip anything we have 
done are we behind the eight ball at this point? How would you 
describe where we stand?
    Ms. Evans. As far as the implementation of IPv6, I think 
everything you read in the GAO report shows that it is self 
explanatory. We have a huge investment obviously in version 4 
and the way to move forward is the administration, at least 
from the Federal Government's standpoint and our investment is 
we are going to take a market-based approach and view how the 
market and the products conduct to go forward.
    We are taken that first step by indicating that we want our 
network backbones to be IPv6 enabled by 2008. We feel that is a 
significant step for where we already are. When I say we are 
behind the eight ball, it is relative depending on what 
services, what activity, whether you are looking at it from the 
consumer or the Federal Government standpoint of the 
investment.
    Chairman Tom Davis. Mr. Powner, to the extent that you are 
able, can you kind of describe the projects you are undertaking 
in IPv6?
    Mr. Powner. The projects GAO is currently undertaking?
    Chairman Tom Davis. I am sorry, I meant to ask this of Mr. 
Wauer.
    Mr. Wauer. Those are spread out over the whole Department 
of Defense. We are looking at all of the new procurements going 
on such as TSAT, the gig bandwidth expansion and several of the 
other procurements that are going on, JTERS. All of those are 
going to be IPv6 enabled.
    Chairman Tom Davis. Are you in any position at this point 
to talk about how long it would take to complete the transition 
and what the cost would be?
    Mr. Wauer. No, I am not.
    Chairman Tom Davis. Ball park?
    Mr. Wauer. Anything I would give you would be strictly off 
the top of my head. The actual implementation plans from each 
of the services and components are being generated. They have 
gone through a first cut and until we see those and are able to 
aggregate those, it would be very difficult to put a specific 
timeframe on that.
    Chairman Tom Davis. Mr. Powner, how do we measure the 
success of the transition? Could GAO benchmark the United 
States versus other nations? Would that be an appropriate 
benchmark?
    Mr. Powner. One of the things that we are currently in the 
process of doing for you is looking at some of the early 
adopters of IPv6. In fact, we will touch on some of that with 
where some of the other countries are. Initially, some of the 
data out there is a bit misleading. Clearly from a leadership 
perspective, I agree with some of your comments earlier and 
where your questions were going that we are behind the eight 
ball from a leadership perspective clearly. From an actual 
transition perspective, it is a little unclear where some of 
the other countries are. There are councils in place and tax 
incentives being thrown out there for corporations and 
agencies.
    Chairman Tom Davis. How much has been spent by other 
countries roughly on the transition at this point?
    Mr. Powner. No ballpark.
    Chairman Tom Davis. Significantly more though than we have 
spent, is that fair to say?
    Mr. Powner. Likely, yes. That is a huge unknown here in the 
States, how much we spend, especially from the Federal 
perspective.
    Chairman Tom Davis. You may actually have the incentive 
because they are the ones that need the addresses and 
everything else.
    Mr. Powner. Absolutely and we don't have the pressing need 
because we control more than 70 percent of those 4 billion 
addresses to date.
    Chairman Tom Davis. If the world stayed at IPv4 at this 
point, we would not be disadvantaged competitively, it would be 
the other countries and that is where the impetus is?
    Mr. Powner. Correct, but I think if you look from a mission 
perspective and why DOD has this very detailed effort in place 
to transition from a mission perspective, we would like to stay 
on the cutting edge. There are implications for homeland 
security applications where we could really benefit from what 
the new protocol could provide.
    Chairman Tom Davis. Would you say this is not comparable to 
Y2K because we are not dealing with a time certain at this 
point? This continues to be a work in progress as it emerges. 
As Ms. Evans said, market-based and we will see how quickly it 
gets up to snuff?
    Mr. Powner. It is clear we don't have a firm deadline like 
Y2K but I think it is nice we have a target the administration 
is now throwing out for 2008. Clearly it is similar to Y2K in 
the sense that it affects a lot of equipment that is out there. 
Our phones, our PCs, operating systems, network routers, it is 
widespread in terms of what will need to eventually be swapped 
out.
    Chairman Tom Davis. Reading the papers today with constant 
reports of intrusions and security breaches, it appears the 
Internet is relatively insecure. With full implementation of 
IPv6, do you think it would provide greater security 
potentially?
    Mr. Powner. Clearly with the new protocol, there is a 
feature in it that allows for more robust authentication and 
confidentiality of the day. In the long term, it is believed 
that protocol will allow for greater security.
    The issue where it is insecure as Mr. Rhodes demonstrated 
is there is a lack of awareness that agencies currently have, 
IPv6 in their networks today? If they knew that occurred, they 
could effectively mitigate those risks.
    Chairman Tom Davis. Let me ask the entire panel, should the 
U.S. Government obtain its own block of IPv6 address space now?
    Mr. Rhodes. I don't think it is actually necessary for the 
United States to do that when you are talking about a huge 
volume of addresses. Locking in your own set is not the same as 
it was with IPv4. That is one of the great benefits of IPv6 
that there is plenty for everyone. If you lock in your own, 
that is fine because then you have contiguous sets of IP 
addresses that you can work but it is not the same struggle 
that we had with the current set of addresses that you need to 
worry about in IPv6.
    General Moran. The Department of Defense is in the process 
of pulling together an area of how many we think we will need 
and we are processing forward to establish that and get it 
allocated to us.
    Chairman Tom Davis. Do you think the transition to IPv6 is 
an economic imperative and do you think the Federal Government 
is losing its lead in technology by not moving more quickly? 
Mr. Powner, do you have any thoughts on that?
    Mr. Powner. Clearly, I think we are in a far better 
position if we lead than lag. Being in a position where we can 
take advantage of some of the applications that IPv6 could 
provide would put us on sound footing, especially when you look 
at some of the capabilities we need to secure, the Department 
of Homeland Security.
    Mr. Rhodes. Mr. Chairman, as a scientist and as an 
engineer, I can only say if we allow other people to adapt 
before us, they will be the ones who build the killer 
applications and we won't because they will be able to work 
with it everyday. The Chinese already have an IPv6 router that 
they are just waiting for market share on. They have an IPv6 
dedicated and enabled network.
    If you look at the implementations in Japan and look at the 
equipment being built in Japan, they are the ones working with 
it on a regular basis in day-to-day operations. We would like 
to have a voice over IP; they are already working on it because 
they get the quality of service benefit from IPv6. Somebody is 
going to be ahead of us if they are working with it every day.
    If we relegate it to being networks sitting inside 
universities, that is fine but that is research. As Ms. Evans 
points out, that is not the market driving it.
    General Moran. From the Department of Defense perspective, 
it is an operational imperative that we move to IPv6 because if 
you look at the future warfighting concepts, whether they be 
land, air or sea, we must have an IPv6 environment in order to 
move the information we are going to require to be successful 
in the environment. Therefore, the DOD I think has moved out so 
aggressively.
    Chairman Tom Davis. Do you think IPv6 quality of service 
standards meet the needs of DOD and will IPv6 give DOD less 
quality of service than we have currently?
    General Moran. I am not a technologist but I do believe in 
order to get the quality of service capabilities that we 
require across our global information grid which is going to be 
our part of the network, we are going to need to have the IPv6 
quality of service implementation.
    We are involved through the department level to ensure that 
the definitions of those standards meet our requirements.
    Chairman Tom Davis. But basically what you have is Asia and 
Europe moving ahead on their own. Whatever we do, we will have 
to adjust to these standards. Either we will be left behind or 
the more proactive we are, we will be able to continue a 
leadership role.
    General Moran. It is my personal belief that we need to be 
in a leadership role so that we get the standards developed in 
a way that from the Department's perspective, we get the 
capabilities we require.
    Chairman Tom Davis. I appreciate the leadership role DOD is 
taking.
    Mr. Gutknecht, any questions?
    This is new stuff for a lot of members. A lot of us are 
still trying to figure out how to plug in the computers but it 
is critically important for us, not just for operation of 
government but for global competitiveness.
    From the GAO perspective, I appreciate your report. This 
was very, very helpful to others in kind of laying this out. 
This is the first congressional hearing on this but it is 
something we will continue to try to ride herd on here. 
Hopefully the interest will spread to other committees as we 
understand the national security implications, the global 
competitiveness, economic ramifications of this and this is a 
big bite for you, Ms. Evans, as well. I hope you are getting 
cooperation within the Government as you continue to take your 
leadership role on this.
    If there aren't other questions for this panel.
    General Moran. I really want to make one statement about 
one item you just mentioned and that was the question about 
Y2K. I do believe the reason the Department has been so 
successful is that our leadership is using the Y2K model to 
manage this. That is what has forced the leadership to deal 
with the realities of this change that is required. Even though 
we don't have a day and time that we have to be on IPv6, the 
management strategy the Department is using is exactly what we 
used in Y2K. I would argue that is why we were so successful.
    Mr. Wauer. If I can inject one other thing, one of the 
things the Department has found is this is a highly complex 
process. It is spread out over a myriad of different 
applications. It is not a trivial thing, both from a technical 
and management standpoint.
    We actually stood up a transition office. This is not a 
part-time job for a group of people. This is going to require 
some dedicated staffing and some real emphasis being placed on 
it to get this thing done right.
    Chairman Tom Davis. Is there dedicated funding for this at 
this point or are we kind of taking a little here and there?
    Mr. Wauer. The first 2 years, there was some dedicated 
funding for the transition office itself. We are now in the 
roll. It is spread across because the way we manage true 
programs, it is spread out across the programs.
    Chairman Tom Davis. Explain to me what happens if we sit 
back and do nothing. If we were to sit back at this point and 
take a very relaxed point of view and let everyone else move 
ahead, what are the ramifications of that? Ms. Evans.
    Ms. Evans. I would like to venture an answer that we could. 
As a Nation, we could sit back because we do own over 70 
percent of the address in space. We could invest and make that 
address in space continuously work for us and gain greater 
efficiencies but I think as pointed out by several others here, 
if you want to drive innovation, you have to create an 
environment where people can think about what if. You saw that 
as we were going through the big dot com boom. Everybody was in 
the what if, the Internet presented so many different 
opportunities.
    This isn't a concept, a technical concept that sometimes is 
a little hard to grasp but it provides the opportunity to 
provide an environment out there that you can ask that question 
again, what if. What if I want to do this for Homeland 
Security, what if I want to do this for the Department of 
Defense so that I can expand? Industry, I believe, would 
respond because of the way that innovation has always been here 
within the United States. So we could sit back and continue to 
invest in the current technology that we have and make it more 
efficient or we can invest in the possibilities of the future.
    The administration acknowledges that with proper planning 
and proper resources, IPv6 would allow the country to be able 
to move forward to deal with all those issues.
    Chairman Tom Davis. Mr. Rhodes.
    Mr. Rhodes. Just wanted to give you one practical homeland 
security application. We are very concerned about chemical, 
biological, radiological and nuclear unconventional devices. 
One of the solutions to that is to place sensors. Each one of 
those sensors is going to be on a network, each one of those 
sensors is going to require an IP address, they are going to 
have to send their information back somehow.
    If you want to really have ground truth either from the 
standpoint of the soldiers, sailors, airmen and Marines or the 
first responders, you are going to have to have this. Yes, we 
could sit back but you just don't have enough Internet 
available to you at this moment in its own configuration.
    Chairman Tom Davis. Thank you very much.
    We will take a 2-minute break and call our next panel.
    [Recess.]
    Chairman Tom Davis. Thank you all for being here.
    You heard our first panel of witnesses and some of the 
questions. Hopefully we can get into some other questions as we 
move through this.
    We have on this panel: John Curran, chairman, American 
Registry for Internet Numbers; Jawad Khaki, corporate vice 
president, Microsoft Corp.; Stan Barber, vice president, Verio, 
Inc.; and Alex Lightman, chief executive officer, Charmed 
Technologies, Inc.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Curran, we will start with you and 
move down the line. Try to keep it to 5 minutes but if you need 
time, it looks like we have a small group of members, so we 
will have some time if you need a couple extra minutes to make 
your point.

  STATEMENTS OF JOHN CURRAN, CHAIRMAN, AMERICAN REGISTRY FOR 
   INTERNET NUMBERS; JAWAD KHAKI, CORPORATE VICE PRESIDENT, 
MICROSOFT CORP.; STAN BARBER, VICE PRESIDENT, VERIO, INC.; AND 
 ALEX LIGHTMAN, CHIEF EXECUTIVE OFFICER, CHARMED TECHNOLOGIES, 
                              INC.

                    STATEMENT OF JOHN CURRAN

    Mr. Curran. Good afternoon.
    My comments are formally a part of the record, so I am not 
going to read them but I will summarize them for the sake of 
brevity.
    I am John Curran. I was one of the founders of the American 
Registry of Internet Numbers. I have been the chairman since 
its inception in 1998.
    I would like to say I welcome the chance to come here and 
talk about U.S. leadership and the IPv6 arena. I think it is a 
very important topic.
    I want to say for background not everyone is aware of how 
IP addresses are allocated. ARIN is one of the five regional 
Internet registries that handle address management. We handle 
it for North America which includes Canada, the United States, 
much of the Caribbean. Our counterparts are AfriNIC, APNIC, 
LACNIC and RIPE NCC which handles Europe. Combined, these 
registries form a bottoms up policy formation process that all 
Internet service providers worldwide participate in. This is a 
very important concept to keep in mind as we talk about 
Internet numbers and how they are allocated and the transition 
to IPv6.
    I have background in industry as well which is relevant to 
this. I have been involved in three Internet companies as chief 
technology officer including BBN which was the builders of the 
IBERnet, the original IP network; XO Communications out in 
Virginia; and most recently a company called ServerVault.
    My involvement in the Internet actually goes back quite 
some time. I was involved in the Internet Engineering Task 
Force back when it was time to form the IP Next Generation 
Directorate, the group that took on the problem of the IP 
address depletion issue. I would like to review what happened 
at that time because it is very important to this proceeding to 
give context as to why we are talking about IPv6 now.
    Back in 1993, the emerging research network and commercial 
Internet was very successful. We had the regional networks 
growing by leaps and bounds, we had the very start of the 
commercial Internet providers. A group of people got together 
and figured out that we were going to have an address depletion 
problem. Back at that time, that problem looked like it could 
occur as soon as 2005, potentially as late as 2010.
    As a result, the IETF formed a group called the IP Next 
Generation Directorate which was challenged with forming the 
requirements for the next generation Internet protocol. The 
result of that group and the follow on efforts in the IETF was 
the IPv6 protocol. That protocol as we all know has a much 
larger address space and has numerous technical enhancements. 
This is all covered very well in the GAO report and I won't go 
through it.
    It was envisioned that larger address space was needed 
because we were going to run out of address spaces again very 
early in 2000. Luckily, there were some changes in address 
allocation policy at the same time. These changes resulted in 
the usage of IPv4 address space being reduced substantially, 
the rate at which we were using them, and as a result, we have 
no problem today. IPv4 address space is being used but there is 
plenty available for organizations worldwide to connect.
    The reality is that we do forecast this a bit. The 
forecasts show 2018 being one of the earliest forecasts but it 
is a moving target. You can have a few years of increased usage 
that will cause that forecast to come in.
    The important point here is that whether we are looking at 
a number of 201, 2015, there is ample time for organizations to 
transition to IPv6. There is not a crisis, per se. This is 
important to remember because the transition to IPv6 is a very 
challenging item. We had the prior panel discuss the planning, 
the business case and the security issues associated with that.
    I would like to highlight the fact that we have been 
allocating IPv6 addresses to organizations since 1999. The 
Internet community is standing by ready to transition. We have 
the protocol done, we have the address allocation authorities 
done, there are test networks for IPv6. So we are ready to go. 
That is not a challenge.
    The challenge is that you need to have a transition plan 
and you need to have business cases. These are very complicated 
for industry to form. One of the things that led in the United 
States to a lot more analysis of transition issues was the 
Department of Defense's adoption of a Statement of Migration to 
IPv6. That caused not only within the Department of Defense 
community but in the contractor community and in the vendor 
community, a focus on all of the issues necessary to enable 
this.
    The reality is that is what we need, more industry 
involvement. This industry involvement can be achieved by 
involving more Federal agencies in the planning process. Per 
se, industry will help facilitate the transition to IPv6, but 
we don't need anything other than the impetus provided by more 
Federal planning.
    As some of the largest users of IT technology, it is 
appropriate that Federal agencies are the ones that start the 
planning process as early as possible because they have large 
issues that are associated with their scale.
    I just want to say that ARIN supports the increased 
involvement of more Federal agencies in this planning process. 
The Internet community is ready to transition to version 6. 
There is time to get the job done and we look forward to this 
committee's and the GAO's involvement in encouraging more 
Federal agencies to move in this direction.
    That concludes my comments. Thank you and I look forward to 
questions.
    [The prepared statement of Mr. Curran follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.041
    
    [GRAPHIC] [TIFF OMITTED] T2510.042
    
    [GRAPHIC] [TIFF OMITTED] T2510.043
    
    [GRAPHIC] [TIFF OMITTED] T2510.044
    
    [GRAPHIC] [TIFF OMITTED] T2510.045
    
    [GRAPHIC] [TIFF OMITTED] T2510.046
    
    Chairman Tom Davis. Thank you very much.
    Mr. Khaki, thank you very much for being with us.

                    STATEMENT OF JAWAD KHAKI

    Mr. Khaki. My name is Jawad Khaki. I am the corporate vice 
president for Windows Networking and Device Technologies where 
I have worked for 16 years.
    I consider it a great honor to be with the committee today. 
Beginning in July, I will serve on the Federal Communications 
Commission's Technical Advisory Council which was designed to 
provide the FCC with technical advice on emerging technologies.
    In both this hearing today and as part of the FCC Council, 
my goal is to help America maintain its tradition of 
technological excellence and role as the global leader in 
information technology.
    The success of the Internet today is due in large part to 
the efforts of the U.S. Government providing initial financial 
incentives including supporting academic research and Microsoft 
and other key industry partners providing Internet capable 
devices and applications.
    Broadband Internet access is now commonly available 
worldwide and combined with the latest IP devices and services 
such as mobile telephones, multi-player games, voice-over 
Internet protocol, video conferencing, IP-based TVs are placing 
increasing requirements on the Internet's infrastructure. IPv6 
brings relief to this strained infrastructure.
    International IPv6 efforts continue to pick up momentum, as 
you noted most notably in Asia, specifically in Japan and 
China. In September 2000, the Japanese Prime Minister, Mori 
Yoshiro made IPv6 a Japanese national priority akin to the U.S. 
Government's approach to the Internet 30 years ago.
    We anticipate that Japan will roll out robust, commercial 
IPv6 networks capable of supporting tens of millions of 
broadband subscribers over the next few years. Chinese and 
Japanese efforts are designed not only to deploy IPv6 Internet 
technologies but also to promote domestic industry. Domestic 
companies in China receive substantial government funding for 
their efforts. We also see similar efforts in India, Europe and 
other parts of the world. IPv6 adoption has proceeded slowly in 
the United States but is likely to accelerate as IPv6 network 
solutions and applications become more available, robust and 
affordable.
    The conversion from IPv4 to IPv6 is a large task that will 
affect network architectures, applications, systems and 
operational procedures but we believe the benefits would 
outweigh the costs. It appears private industry efforts are 
working well at this stage of IPv6 planning and deployment. 
Companies continue to support IPv4, increasing providing IPv6 
compatibility and many are preparing for an eventual transition 
to an IPv6 network.
    It is difficult to codify an exact cost amount of either an 
organizational or national level IPv6 transition since the 
costs will depend heavily on the way entities deploy IPv6. 
Transition technologies provided as an inherent part of the 
IPv6 protocol support are in the short term the most cost 
effective, fastest and least disruptive way to introduce IPv6 
connectivity into an existing IPv4 environment.
    In the long term a full native IPv6 deployment can be 
achieved gradually by adding IPv6 into the network through a 
regular technology refreshed cycle. Microsoft understands the 
importance of IPv6. Our research and development teams 
participate in the IETF IPv6 Open Standard Activities and the 
next version of the Windows operating system, code-named 
Longhorn, will be fully IPv6 capable.
    While we are working toward developing a comprehensive set 
of IPv6 capable applications and services, we remain acutely 
aware that any IPv6 deployment should be a phased transition 
that results in minimal infrastructure upheaval. Ultimately, 
Microsoft believes that marketplace dynamics with the 
Government being an engaged customer, will gradually lead to 
widespread use of IPv6 in the United States and around the 
world.
    As we look at the Government's role, we would not recommend 
mandates or regulations to artificially force IPv6 deployment 
but rather, active political support and efforts to strengthen 
the domestic economy and stimulate commercial innovation.
    On the academic front, U.S. Government funding of research 
grants and programs that provide a guiding light on evolution 
of the Internet should be continued. As Bill Gates stated at 
the Library of Congress in May, ``Our universities and 
laboratories must be invigorated with first class research 
programs and thinkers to continue to blaze the technology 
trail.''
    We suggest that international efforts to stimulate adoption 
of IPv6 be evaluated and that the U.S. Government learn from 
and if appropriate, adopt some of these emerging practices. 
Providing economic incentive programs typically show faster 
results than policy recommendations alone.
    U.S. Government procurement actions have a profound impact 
on commercial product strategy and delivery plans. Strong IPv6 
support from the U.S. Government such as current efforts by DOD 
will only strengthen the perception that IPv6 is an important 
technology for American business and the public sector.
    In conclusion, Microsoft is excited about the IPv6 
potential to enable pervasive collaborative computing. The U.S. 
Government has a great opportunity to foster an environment in 
which we have industry and academic IPv6 thought leadership. We 
are eager to work with you to achieve this environment.
    Thank you once again for the opportunity to speak before 
the committee. I look forward to answering your questions.
    [The prepared statement of Mr. Khaki follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.047
    
    [GRAPHIC] [TIFF OMITTED] T2510.048
    
    [GRAPHIC] [TIFF OMITTED] T2510.049
    
    [GRAPHIC] [TIFF OMITTED] T2510.050
    
    [GRAPHIC] [TIFF OMITTED] T2510.051
    
    [GRAPHIC] [TIFF OMITTED] T2510.052
    
    [GRAPHIC] [TIFF OMITTED] T2510.053
    
    [GRAPHIC] [TIFF OMITTED] T2510.054
    
    [GRAPHIC] [TIFF OMITTED] T2510.055
    
    [GRAPHIC] [TIFF OMITTED] T2510.056
    
    [GRAPHIC] [TIFF OMITTED] T2510.057
    
    [GRAPHIC] [TIFF OMITTED] T2510.058
    
    [GRAPHIC] [TIFF OMITTED] T2510.059
    
    [GRAPHIC] [TIFF OMITTED] T2510.060
    
    [GRAPHIC] [TIFF OMITTED] T2510.061
    
    [GRAPHIC] [TIFF OMITTED] T2510.062
    
    Chairman Tom Davis. Thank you very much.
    Mr. Barber.

                    STATEMENT OF STAN BARBER

    Mr. Barber. It is a distinct honor to speak to you today 
about the next generation Internet and the transition to 
Internet protocol version 6.
    My name is Stan Barber, the vice president of engineering 
operations at Verio, Inc. Verio is one of the world's leading 
Internet service providers and one of several so-called Tier 1 
Internet backbone providers, the networks with sufficient 
reach, scale and traffic to afford their customers and 
customers of other interconnecting networks, including U.S. 
Government users, global connectivity. Verio is based in 
Englewood, CO, and is a subsidiary of NTT Communications Corp. 
and an affiliate of NTT America, Inc.
    The committee is to be congratulated for its focus on the 
next generation of Internet services. We all recognize that the 
Internet has become in a few short years a fundamental aspect 
of our economy and essential to the productivity of business 
and delivery of government services. To some, the term ``next 
generation'' suggests speculation about future technological 
developments, and wide expanses of time and opportunities to 
identify and address issues. However, we live on Internet time, 
and, ``next generation'' in that context means ``now.''
    Indeed, the next generation of the Internet, IPv6, was 
defined as an open source, non-proprietary protocol in the 
1990's and has already found its place extensively in major 
computer operating systems such as Windows XP and Linux and in 
many public and private networks around the world. I believe 
that my company, Verio, is the world's most experienced 
commercial IPv6 service provider and operates the most 
extensive commercial IPv6 network.
    Most networks today still operate in the older IP version 4 
protocol, but the transition to the later technology is 
essential and inevitable because of the inherent advantages 
built into IPv6. IPv4 does not today provide for sufficient 
addresses to accommodate efficiently connectivity to all 
potential users worldwide. IPv6, on the other hand, increases 
the number of directly addressable nodes exponentially. While 
security for IPv4 is provided where practical as a ``patch,'' 
using overlay systems, IPv6 builds in high level security 
protections, such as secure remote node authentication and 
encryption, directly into the network layer, assuring more 
reliable and ubiquitous protection.
    IPv6 generally increases flexibility and functionality with 
additional benefits, such as more efficient routing of traffic 
and more effective usage with wireless devices. The result is 
lower costs and improved services, like end-to-end 
communications and communications with devices other than PCS, 
something we call m2m-x communications. That is why Internet 
equipment manufacturers and the leading software providers, 
service providers and private network operators have started to 
transition from v4 to v6, and those that have not as yet, will 
inevitably find that flexibility, efficiency and security 
requires the conversion.
    Other countries are ahead of the United States in this 
transition. This does not reflect any genuine technological 
advantage over the United States. Indeed, it may be said that 
the United States continues to lead the rest of the world in 
Internet and related technology. Other countries have advanced 
to IPv6 primarily because of an initial lag in Internet 
development. Consequently, they have been more keenly focused 
on the need to address the shortage of Internet addresses and 
less extensive legacy networks in need of transition.
    For example, the European Commission created a task force 
to design a plan of action for development, testing and 
deployment of IPv6 in 2001. The task force is coordinating 
efforts in individual member counties and regions and seeking 
cooperation with other countries.
    The Chinese government has established an IPv6 network 
linking major universities. The government is also funding a 
plan to develop a more extensive IPv6 infrastructure.
    Taiwan is also developing a national information 
infrastructure built on IPv6.
    India has established the IPv6 Forum to coordinate 
development and implementation of IPv6.
    In Japan, the home of our parent company, the government's 
e-Japan Strategy has been promoting the transition to IPv6 
Internet. In addition, an e-Government Creation Plan 
facilitates the procurement of IPv6-capable devices. In the 
commercial sector, the IPv6 Promotion Council helps address 
issues related to the transition.
    I have described these initiatives in other countries not 
to advocate any U.S. Government mandate or funding of 
transition to IPv6 in the private sector, but to note the clear 
recognition by policymakers abroad of the potential of IPv6. 
This committee is showing its characteristic leadership in 
bringing to the attention of the public the need for an 
effective transition from legacy Internet technologies in 
government and more generally.
    The report of the Government Accountability Office 
requested by this committee demonstrates a deep understanding 
of the issues raised by this technological transition. The GAO 
offers solid recommendations to save government money and to 
protect against security threats.
    In addition to GAO's comments, it is also useful to 
recognize that the transition to IPv6 need not be disruptive or 
costly. Verio and NTF Communications employ the so-called 
``dual stack'' transition strategy globally in which we run 
simultaneous IPv4 and IPv6 systems. Use of the IPv6 system is 
selected where a peer has that capability; the legacy protocol 
is employed where the peer cannot be reached in IPv6. Thus, the 
transition is transparent to users and existing software and 
equipment.
    Software and equipment that does not accommodate IPv6 can 
be updated in conjunction with normal upgrades or as specially 
designated by management. The key point is that, as recognized 
by the GAO report, government and private sector management 
should at least be surveying their essential IT operations to 
accommodate the inevitable transition. In this regard, the GAO 
and this committee are also to be congratulated for 
highlighting an extremely important issue of security related 
to on-going employment of legacy IPv4 networks in the 
transition to IPv6.
    As I have indicated, some operating systems, including such 
ubiquitous systems as Windows XP, Apple's OS X, Linux and Unix-
based systems, already accommodate IPv6, although they are used 
primarily in this country in conjunction with the legacy 
network protocol.
    Similarly, many software applications today accommodate 
IPv6. Not all IT managers are aware of the potential of a grave 
security threat to their systems by allowing unauthorized 
parties access to software using ``ghost'' IPv6 addresses 
unrecognized by their systems because they are buried within 
IPv4 addressed packets. Or, if they are aware of the threat, 
they do not have the budgets and other resources to address the 
problem.
    Even as government agencies and the private sector 
transition, as they must, from the legacy platform to IPv6, 
they must be vigilant in adapting firewalls and other equipment 
and software to prevent unauthorized parties from using IPv6 
capabilities accessed covertly over existing IPv4 networks.
    Mr. Chairman, I thank you again for the opportunity to 
address this committee about these critical issues of 
technological development and implementation, and for your 
leadership in identifying and making the public aware of these 
important matters. Verio stands ready to continue to assist the 
committee further in any way we can.
    [The prepared statement of Mr. Barber follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.063
    
    [GRAPHIC] [TIFF OMITTED] T2510.064
    
    [GRAPHIC] [TIFF OMITTED] T2510.065
    
    [GRAPHIC] [TIFF OMITTED] T2510.066
    
    [GRAPHIC] [TIFF OMITTED] T2510.067
    
    Chairman Tom Davis. Thank you very much.
    Mr. Lightman.

                   STATEMENT OF ALEX LIGHTMAN

    Mr. Lightman. Thank you for allowing me to share my 
observations on the possibilities, opportunities and challenges 
presented to the U.S. Federal Government by the looming and 
inevitable transition to Internet protocol version 6.
    As the name of this hearing, ``To Lead or Follow,'' 
implies, this is an urgent time for Internet leadership. The 
Federal Government invested the first $50 million in the first 
Internet, and as a result, the United States led the world in 
that technology.
    The United States has 50 percent of the Internet service 
business, and the Internet has impacted thousands of 
industries, creating an estimated $500 billion a year in extra 
Federal revenues, and adding over $1 trillion in wealth via 
companies like Google, Yahoo!, Amazon, eBay, and hundreds of 
other public companies.
    Similarly, the new Internet has the potential to create 10 
million new American jobs and trillions of dollars in revenue 
for the United States, but leadership is slipping away to other 
countries, and it will soon be difficult, if not impossible, to 
recover. One company, Japan's NTT, has more IPv6 customers than 
all American companies combined. In fact, over 99 percent of 
IPv6 traffic is occurring outside of the United States. In the 
first Internet, we had 99 percent of all Internet traffic in 
the early stages. To answer your question from earlier, we are 
way, way, way behind the eight ball.
    Japan, China, Korea, and Europe have invested over $800 
million in the new Internet compared to about $8 million for 
the U.S. Federal Government, and are now changing the new 
Internet to reflect their political priorities, which are very, 
very different from America's political priorities, and even 
American laws.
    I got a 300 page document from a friend of mine in Spain 
where they are basically trying to make IPv6 anonymous so that 
you can't see who is using it and doing what. In China, they 
have 70,000 people, 50,000 now and 20,000 about to be hired 
whose whole job is to scour the Internet finding people doing 
things they don't like and then grabbing them. These are two 
opposite extremes from the way America would like to do it. We 
would like to have peaceful, non-terrorist uses of the Internet 
be private but we want to be able to reach out and protect the 
country when we have to.
    With Federal leadership in the new Internet, the U.S. 
Federal Government will create a service export boom, with 
millions of innovative new jobs, increased competitiveness for 
hundreds of industries, and thousands of new startups, 
potentially creating a booming economy. American leadership in 
the new Internet will also add thousands of new products vital 
to our military and homeland defense, better security, and 
underpin sustainable technological leadership for the United 
States.
    The promise of the products and services enabled by the new 
Internet is huge, an affordable way to show high quality 
television over the Internet, a possible way to deal with spam 
and attacks on networks, and hundreds of applications to make 
American lives easier and safer.
    Over $9 trillion of America's nearly $13 trillion economy 
relates to services, subscriptions, and transactions, and we 
kind of take it for granted people can't come in and grab those 
away from us. IPv6 will help keep the trust and keep hundreds 
of millions of customers loyal to American companies. If we 
don't show leadership in the new Internet, we get a loss of 
millions of jobs and market shares across thousands of 
companies.
    This is my big concern. A loss of public trust and 
reputations in transactions over U.S. networks using the 
existing, highly vulnerable IPv4 protocol, coupled with an 
increase in trust of IPv6 networks in Japan, Korea, China, and 
the 25 nations of the European Union, could have a devastating 
impact on America's service economy. Internet Service 
Providers, telecommunications giants, banks, brokers and even 
our defense contractors will lose business.
    Where the U.S. Government showed leadership, as we did with 
the post office, the interstate highway system, airplanes, 
lasers, radar, computer chips, and satellites, none of which 
would have happened if we had left it to the market, we are 
world leaders even decades later.
    Where our Government did not show leadership, where there 
wasn't a Congressman Davis to hold hearings and get involved 
with it, including color televisions, big screens and high 
definition television, digital cameras, and DVDs, America plays 
almost no role in these and related areas, except as a consumer 
and our trade deficits reflect that, almost $700 billion this 
year, importers of food, importers of goods. God help us if we 
become importers of services, subscriptions and transactions. 
We are a follower, not a leader, in these fields. If we do not 
show leadership in the new Internet, this same thing will 
happen to us, but on a much broader basis, it will be in 
everything the new Internet touches, which is almost 
everything.
    Mr. Chairman, the opportunity exists for the American 
Government to show leadership in the new Internet, to make a 
real difference for our national security and our industries 
and workers. By supporting the transition of the Government 
agencies to the new Internet standard, as the Defense 
Department has already started to do, we will not only support 
a more efficient and effective government, that is, help 
facilitate fundamental government reform, but will send a 
signal to the world that America is still a technology leader 
in the 21st century. And for anything as important as a new 
Internet standard, it will not be left behind, but will march 
in front, and our Coalition Partner governments will join with 
us and rally to our standards banner. I confirmed this at the 
Coalition Summit which you honored us by being the opening 
keynote speaker.
    Mr. Chairman, there are many specific actions that your 
committee could take to support the promotion of the new 
Internet in our Government, and to support the government 
reform that will be possible when all of government talks with 
the same technical language, so to speak, with this new 
standard. Here are three: one, mandate IPv6 for the entire 
Federal Government by 2010; two, choose a leader who has the 
authority, responsibility, and accountability as well as the 
creativity, passion, and integrity, to galvanize thousands of 
other leaders to get excited and committed to making the 
transition to IPv6 on schedule.
    I point to the case of the Coalition Summit where 30 
different Coalition partners, people who fight and die beside 
us in Iraq, said who is your IPv6 leader. We have our person in 
Sweden, the same person who managed the transition for the 
government from IPv4. Japan has their leader who reports 
directly to the Prime Minister in monthly meetings about this. 
China has its leader, Korea has its leader. Everyone has a 
leader but us.
    Finally, enable this leader to create a Federal IPv6 
Transition Office to serve as the central engine for the 
Federal IPv6 transition, overseeing a budget which I put this 
number out there 6 months ago and nobody has even taken a shot 
at it, of $10 billion, with the budget of FITO itself of about 
$50 million a year.
    This office will assist in managing the complexity of an 
Internet transition, something we did before, in the early 
eighties when the Internet was only one-millionth as large as 
it is today. It is worth pointing out there was a protocol 
before IPv4 called NCP. Ten years after TCIP was introduced, 
the Federal Government said, we are going to get rid of this 
less useful protocol and we shut it off for 1 day. People 
howled and we shut it off for 2 days. Then we shut it off 
entirely.
    Because of this hearing and what is set in motion, there 
will come a point at which we realize there is no sense having 
IPv4 and we will shut it off like we shut off NCP. Let us have 
America be the ones to determine when that shut off is rather 
than other countries that might stop routing our packets.
    If I had to summarize what the Federal Government should 
know about IPv6 it would be: the transition to IPv6 has costs 
and benefits. The benefits far outweigh the costs. Failure to 
transition to IPv6 for the whole economy by 2012 will cause a 
loss of Federal revenues that is roughly comparable to a tax 
cut, with these funds flowing to Europe and Asia rather than to 
American taxpayers.
    Thank you, Mr. Chairman and members of this committee, for 
your time and attention, and for the proud leadership role in 
technology and innovation for America that you represent.
    [The prepared statement of Mr. Lightman follows:]

    [GRAPHIC] [TIFF OMITTED] T2510.068
    
    [GRAPHIC] [TIFF OMITTED] T2510.069
    
    [GRAPHIC] [TIFF OMITTED] T2510.070
    
    [GRAPHIC] [TIFF OMITTED] T2510.071
    
    [GRAPHIC] [TIFF OMITTED] T2510.072
    
    Chairman Tom Davis. Thank you very much.
    I want to thank all of you. Internet and related areas is 
one of the few areas where we are generating a trade surplus.
    From almost unanimous testimony, it appears if nothing 
else, the transition to IPv6 is going to give more innovation, 
that is where the innovation is coming from. What are they 
rolling out in Japan right now in products from using IPv6 that 
we don't see over here? Does anybody have an answer to that?
    Mr. Lightman. What they found is that first of all with 
building controls, they have loan way and other companies which 
they found they can save 29 percent of building operating 
costs, enough to pay for an entire building within 20 years by 
having each room have up to 250 controls all managed 
automatically by IPv6.
    They installed voice over IPv6 in college dorm rooms and 
were giving students free calls all over the country. They have 
had over 800 taxicabs in Goya, Japan using IPv6 to decide where 
taxis should go to more efficiently pick up people. So it is 
involved in services, it is in cars, it is in elevators, it is 
in trains and there are 370 companies doing projects on IPv6. 
All I am talking about is the academic projects of two 
universities.
    Chairman Tom Davis. Does anyone else want to add to that?
    Mr. Khaki. I would characterize the Japanese deployment to 
be in its early stages and the examples that Mr. Lightman gave 
are accurate. I think what is impressive is the investments 
they are making for the long term infrastructure for their 
country in partnership with telecommunications operators.
    As I commented earlier, they are building the next 
generation communications infrastructure. They will deliver 
security services for IT as well as content services for the 
home. It is a longer term investment that I think is more 
impressive than what we are seeing in terms of early adoptions. 
Almost every company in Japan that creates consumer electronics 
devices or network infrastructure has a strong IPv6 plan and 
those products may position Japanese industry in much more 
competitive position than they would have been with IPv4.
    Chairman Tom Davis. Mr. Barber.
    Mr. Barber. There are also a number of groups that are 
formed in Japan to foster the use of IPv6 in non-traditional 
devices as I mentioned in my testimony, non-PC communications. 
Those range not only from things like cell phones which already 
have Internet today in many parts of the United States, but to 
more atypical devices like you mentioned in your opening 
comments, refrigerators, security systems in the home.
    There was a discussion about taxicabs that was mentioned 
earlier but they are also using it to provide real time 
information in the car so when you are driving from point to 
point, you can pick up information on the current traffic 
patterns or perhaps weather in the area you are about to enter, 
things like that. The capabilities they are exploring in Japan 
are extensive and they are possible because of IPv6.
    Chairman Tom Davis. Mr. Lightman talked about the United 
States would be wise to mandate any transition by a certain 
date, 2010, and if we didn't do it by 2012, you talked about 
perhaps some fairly serious economic ramifications. How do the 
rest of you feel about that?
    Mr. Curran.
    Mr. Curran. I think it is important to have a transition 
plan for every Federal agency. This is something that is 
necessary, a transition is inevitable and the activity of going 
through and building the plan to do transition on an agency by 
agency basis is necessary. Just going through and having that 
plan as we have seen the activity that has followed the DOD 
commitment to a migration plan and a commitment to move to IPv6 
will cause industry activity within the United States.
    I believe a specific date may not be required but the fact 
of having a plan which calls for transition and having that 
plan submitted by a date is a very wise idea.
    Chairman Tom Davis. Do you think we are behind the eight 
ball at this point or do you think we are OK?
    Mr. Curran. You have to recognize that my view on this is 
somewhat skewed because of my experience with the Internet over 
the last 15 years in the addressing field. I believe that it is 
not a question of whether or not we have to move quickly to 
catch up. Earlier you asked the members from Government whether 
or not it was important for the Government, for example, to go 
get its own block of IPv6 address space. That is not necessary. 
The address space will be there. IPv6 provides an ample address 
space so it will be there when agencies go to get it.
    I think the more important question is that it is important 
to raise the awareness of IPv6 within the United States, it is 
important to get all of the people involved in technology, 
manufacture, the vendors to produce IPv6 capable products and 
not just know it is a switch they have to turn on but someone 
is going to actually turn that switch and use it.
    The act of the DOD committing to version 6 caused to work 
out interoperability problems that would not have otherwise 
been found. The commitment of agencies to do the same will 
cause the U.S. industry to catch up on version 6.
    Chairman Tom Davis. Does everyone who requests a block of 
addresses receive it?
    Mr. Curran. The regional registries all have allocation 
policies that they follow for issuing those address blocks. 
These are set on a region by region basis. The challenge is if 
you meet the guidelines, you get your address space. There are 
applications in every region of the globe that don't meet that 
region's addressing policy and get turned down.
    Chairman Tom Davis. Is that a business case you have to 
make to get that address?
    Mr. Curran. It is simply showing that you have valid uses 
for the address space. One of the challenges we face as the 
stewards of the address space is ensuring that people indeed 
have equipment to use the addresses on. We don't want a 
hoarding situation.
    Chairman Tom Davis. That is the next question. If I'm a 
large consumer products manufacturer and I would put IPv4 in 
every product I make, say $20-40 million, can I get that block?
    Mr. Curran. That question actually came up a number of 
times 2 and 3 years ago. We were approached, for example, by 
the cellular industry. The cellular industry was directed that 
wide scale deployment of devices with embedded addresses should 
look in the direction of version 6.
    We are trying to make sure that the future is looking to 
version 6 particularly for these embedded applications.
    Chairman Tom Davis. Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman, for your leadership 
on this very important issue.
    The United States represents about 5 percent of the world's 
population and about 50 percent of its economic strength, and 
about 40 percent of its technological output. The U.S. 
leadership position is eroding as evidenced by the pervasive 
and growing trade deficit which is about $600 billion today, 
meaning that Americans who used to make things and sell them to 
the rest of the world are now a consumer nation. We consume 
about 6 percent more than we produce. This indicates there are 
economic troubles currently and on the horizon. It is a much 
different world than we dealt with ever before.
    Tom Friedman, the New York Times columnist and author just 
wrote a book called, ``The World is Flat'' and in it he argues 
that the old vertical model, the old economic model of knowing 
who is on top and knowing who is on the bottom is gone, the 
world is flat, it is horizontal. Knowing who is up, who is down 
and who is emerging is much more difficult.
    He argues that this is a consequence of the convergence of 
information technology which now makes the tools of innovation 
and collaboration available to all. Depending on the motivation 
that you bring to these tools, positive or negative outcomes 
are determined.
    The one interesting parallel he outlines in his book in the 
final chapter in particular is, he says in February 1999 two 
airlines were started. One was started by a bright American 
entrepreneur by the name of David Kneitelman of Salt Lake City, 
UT. He financed through American banks the purchase of a whole 
new fleet of jets. He outsourced the pilot training to a flight 
school throughout the United States and he outsourced the 
reservation system to retirees and housewives in Salt Lake 
City. When you call Jet Blue, which is his airline, and make 
your reservation, you are talking to someone who is in their 
living room in Salt Lake City. He built in Jet Blue one of the 
most successful and financially strong airlines in the entire 
world.
    The other airline was started in Afghanistan by Osama Bin 
Laden. He financed a purchase of jets through various 
financiers in the Middle East; he outsourced the pilot training 
to a flight school in Miami; and outsourced the training or 
planning to Ali Sheik Muhammed.
    Both airlines were designed to fly into New York City, Jet 
Blue into LaGuardia and JFK and of course Al Queda into lower 
Manhattan.
    The thesis of his book is a very urgent reminder of what 
Americans have to do in order to not only regain their economic 
superiority but to also stay competitive in the world so as to 
ensure that our national security is strong and secure as well. 
I don't know if you have read the book or read his column, I am 
curious as to what the panelists think about the thesis that 
Friedman outlines.
    Mr. Lightman. I read the book and I think he missed trust 
in a big way. Recently there was a story publicized all across 
England. I spent the last 2 weeks in England raising money for 
an IPv6 fund. People said, oh, the Indians let out the bank 
data; well, I am never going to outsource anything to them 
again. So with all the stories of all the people doing things, 
if people can't trust your networks, and all it takes is one 
release of critical data, then it can cause devastation. 
Millions of Indians will lose their jobs or will not gain them 
because of the loss of trust.
    As far as outsourcing, if China succeeds in putting in its 
own IP Sec and its own complete transparency and can track 
every person and everything they are doing, and you are a 
government that is a dictatorship, say you are one of the 100 
countries in the world that doesn't have a democratically 
elected government, whose Internet are you going to buy? Are 
you going to buy it from China which has said look, we have 
proven we can take care of our dissidents or are you going to 
buy the American one which is designed that way? There are a 
thousand political decisions to be made and the problem for 
IPv6 that there has been no elected official, somebody who 
basically has the legitimacy as an elected official to do this.
    What makes the transitions in Korea and Japan so powerful 
is that the people in charge of them are elected officials and 
they are unique in the world. That is why these hearings are so 
important. Outsourcing will ground to a halt if people can't 
believe they will be treated as honestly in India or China or 
anywhere else as they would be treated at home. If we lose that 
trust, it is worth trillions of dollars a year in our GDP.
    I want to mention one other thing. We have been a Net high 
tech importer for the last 2 years according to Business Week, 
so we are not an exporter, we are an importer of high 
technology. This year we have become an importer of food. What 
is left is services, subscriptions, transactions and media. 
That is it. IPv6 touches all of them right at the very guts.
    Chairman Tom Davis. We talked about mandating a transition 
by a certain date. Mr. Curran, you answered. I didn't to Mr. 
Khaki and Mr. Barber. I would also ask should the United States 
fund those transition efforts like other nations have done?
    Mr. Khaki. Our viewpoint is that the natural market forces 
would be the right kind of forces to work out the transition 
issues. There has to be careful thinking of the business case 
and the scenario planning along with all the transitional 
issues. So we strongly believe that the market forces will 
eventually lead the transition of things.
    There is a role the Government has to play in terms of 
encouragement which I alluded to earlier in my testimony with 
regards to supporting the research and education sectors 
through procurement policies of the Government. I think those 
can be a good catalyst. So we believe the transition will take 
place left to the market forces.
    Chairman Tom Davis. Mr. Lightman has argued for elected 
officials in government to take a lead.
    Mr. Lightman. I explained it in an article I wrote recently 
which I will send you a copy, which says ``Twenty Myths and 
Truths about the IPv6 transition.'' I leave two points to let 
the market decide. The Department of Commerce went out and got 
requests for comment which said let the market handle it and 
they are so embarrassed about it that they won't release the 
report because the position is insupportable.
    I will give you three examples. One, there is one man who 
is the primary examiner in the U.S. Patent and Trademark Office 
who has 150,000 patent applications as of a month ago. It is 
probably 160,000 today where people and companies like 
Microsoft, like AT&T, like many people are trying to say, I 
have a patent, I want exclusive use on that so no one else can 
use it without my permission for 20 years.
    The reason the Internet works at all is because the Federal 
Government paid for it, didn't try to get a patent and gave it 
to the world. How well do we think it is going to work if we 
leave it to the market but leave it to 10,000 different 
patents, say you use this security protocol for this kind of 
packet, so therefore you are infringing on my patent. It is not 
going to work.
    Chairman Tom Davis. I didn't want to start an argument, but 
I hear you.
    Mr. Barber. I believe that the transition needs to have two 
components to it in the United States. The Government needs to 
transition its own operations to support its own mission. So if 
the Department of Defense believes they need IPv6 by such and 
such a date, they should absolutely do that by whatever date 
that is that meets their mission objectives.
    The fact there are many agencies that don't have their 
planning far enough along to even project dates is of concern. 
So it is my belief that they should all establish some very 
firm transition plans that include some sort of a date by which 
they will at least have their transition far enough along to 
have IPv6 operational in their networks.
    Notice I didn't talk about turn off IPv4, I only talked 
about turning on IPv6. When you turn off IPv4, I think is a 
different question and has a different set of characteristics 
associated with that and that will be driven by really 
attrition, in my opinion. When do you turn IPv4 off should be 
an attrition driven question, not one driven by some sort of 
deadline.
    From a market perspective, I agree there should also be 
market forces at work that encourage industry to deploy IPv6 as 
it is to their advantage. Certainly the Government will 
influence that by having each agency have a mission specific 
transition plan but I don't think we need to have some big date 
out there in the future where everyone has to be on version 6 
everywhere in every office in the United States.
    Chairman Tom Davis. Mr. Khaki, how are you using IPv6 in 
your products and services?
    Mr. Khaki. We are a Windows operating system platform 
provider. It was very important for us to provide platforms 
that would enable software innovation for scenarios that are 
yet to be imagined. We have had a strong commitment in IPv6. We 
include IPv6 support in the Windows XP operating system. Our 
primary focus was to enable developers to develop new kinds of 
scenarios and those operating systems are being used worldwide 
today.
    For your information, we have a global IPv6 network that 
integrates all our development centers spread across the world. 
We are using the transition technologies that I mentioned 
earlier in achieving this connectivity. The biggest 
applications we see are the ones that require pervasive 
collaborative communications because today's limitations of 
added space prevent data being transmitted and created undue 
burden on the network.
    I would like to respond to a point made earlier on 
intellectual property. The 30 years of leadership the U.S. 
Government has shown in IPv4 was important to the academic work 
that was done. There is a similar role the Government has to 
play to make sure that academic research continues so that we 
have good prior art, that we remain competitive, that we do 
encourage industry to innovate. There are incentives, 
commercial incentives, tax incentives, government matched 
funding to enable these commercial forces to work.
    I think the biggest thing we will see is the Government 
procurement itself be a key driver. As I have been active in 
the IPv6 efforts since 2001 visiting Japan and China and other 
places, clearly the announcement by the Department of Defense 
in 2003 was a major event that actually made a lot of companies 
in the United States more aware and brought more urgency to the 
issue.
    Chairman Tom Davis. What fields do you think will most 
directly benefit from the exploitation of IPv6?
    Mr. Khaki. If I can give you an example, you can think of 
the IPv4 address limitation today in some ways similar to the 
memory limitations in the early days of the PC. In the early 
days of the PC, there was a 640K memory limit. A lot of 
developer creativity, a lot of IT creativity enabling new 
capability was being used to overcome the limitation that was 
there using things like LEM M, EMM and High MEM. The IPv4 
address space limitation is similar to that limitation that was 
there.
    A lot of energy is being spent in drawing on new 
capability, IT departments and developers are working around 
limitations, so we are not really moving ahead, we are kind of 
making what we have work slowly. That would be a key benefit. 
Another important one is security. IP SEC is an important 
addition to the IPv6 protocol, it is better integrated. Those 
capabilities will help us build a much more secure 
communications infrastructure.
    Besides IP SEC there is also other lower layer technologies 
that are in IPv6 that help IPv6 networks to be more secure than 
IPv4. It is important that we look at that. Things like 
wireless networks, LANS were not really around when the 
original IPv4 was invented. So there are limitations on those 
protocols and IPv6 addresses that.
    Chairman Tom Davis. Let me ask this to each of you. Mr. 
Curran made his comment. Do you think there is no short term 
shortage of IP addresses in the United States?
    Mr. Lightman. As Mr. Curran admitted, they don't give them 
to you if they don't feel they like your business plan, so it 
is not a market based decision. For instance, if I wanted to 
have 50 million addresses, say I work for General Motors, I am 
consultant and I want to get a block of addresses, they can 
say, well, we don't really like the idea of IPv4 addresses in 
cars, so here is the basic point. If you don't give away the 
addresses, you never have a problem with them.
    In any case, you can always come back and blame the United 
States for hoarding them because the U.S. DOD has a very large 
block and we could give it back, then there would be no 
shortage. It is not a commercial thing, it is not a market 
based solution. On the one hand, people say, leave it to the 
market but on the other hand, the market is not working in the 
way addresses are allocated today.
    Chairman Tom Davis. Anyone else?
    Mr. Barber. I think for the future of the Internet 
application, for ubiquitous connectivity to everything, we will 
run into a limitation at some point. If we make the investment 
in trying to make this work for IPv4, we are investing in a lot 
of patchwork to get the same kind of innovation that we would 
have with IPv6 because of its native architectural features. I 
believe the innovation future as someone in the previous panel 
said from OMB, the innovation future is with IPv6, not with 
IPv4, regardless of the number of addresses available.
    Mr. Khaki. The way I feel about the current situation is we 
are making do with the limitations we have and in the process, 
we are slowing things down. The IPv6 address space will relieve 
concerns that are there and the way I think about this is 
restoring the hygiene, the end to end computing model on which 
the Internet was founded. Today the hygiene of the network is 
not there because you end up with these devices that prevent 
communications taking place end to end and a lot of breakage is 
an extra cost.
    Chairman Tom Davis. Do you think the United States has the 
necessary infrastructure, wireless and broadband, to exploit 
any of the key features of IPv6 on a national level today?
    Mr. Khaki. I believe we have a good infrastructure in this 
country and more is being done each day. I think the work the 
Government did with regards to unregulated wireless spectrum 
was excellent. It actually has helped us deploy new 
capabilities with YFI. I think those are great things. There is 
a lot of movement in the industry around wireless technologies. 
That is healthy. Broadband deployment is increasing by the day. 
So those are good things.
    I do believe that the existing version 4 Internet 
infrastructure is suitable also for migrating us to version 6. 
The way we think about this is to separate out the 
infrastructure migration and the application migration because 
oftentimes they can be thought of as a chicken and egg. Is it 
the chicken or the egg? By using appropriate transition 
technologies and using appropriate conversion tools, you can 
migrate either the infrastructure or the application.
    Chairman Tom Davis. Anyone else?
    Mr. Curran. I would like to respond to something said 
earlier.
    To the extent an organization doesn't get an IP address 
space, it is because the ISPs in that region have formed 
policies and those policies for that region simply state these 
are the valid purposes for assigning them. There is no question 
or judgment of business plan. If a business in the Far East got 
turned down for address space, it is because the ISPs that make 
up that region came up with allocation policies to balance 
availability and stewardship. So there isn't per se a shortage, 
we are simply enforcing the policies that the Internet 
providers worldwide have adopted.
    Chairman Tom Davis. But you would agree that there comes a 
time when you do end up with a shortage?
    Mr. Curran. Absolutely. In fact, as we go forward, it only 
makes sense to make sure the policies for allocation of address 
space get increasingly frugal to ensure that people know yes, 
you need to balance the business case between transition versus 
going forward on version 4.
    Chairman Tom Davis. I get it.
    Mr. Lightman. I would like to make one comment on 
infrastructure. The Soviet Union is still alive and well, 
living in American networks. There was a Russian invention 
which was made for people living in apartment buildings where 
they had one phone number for the apartment building and a 
phone on all ten of the floors where it would ring on every 
floor. The person living with that system made up something 
called NAT, Network Address Translation, so people say, you 
have Network Address Translation, good Russian technology and 
it enables you to take one IP address and have 100 different 
people use it or even go to 100 NATs and go on and on and on. 
So you can have a NAT behind a NAT.
    Basically if you buy into that flawed argument, you don't 
need any IP addresses but the refutation to that is the 
telephone that you have. You have a number and you can see what 
it is. That is end to end. It is not going to an operator. The 
whole invention of the switch was because the guy who had a 
funeral home thought he was missing calls from the operator who 
was switching his calls.
    Why are we stuck with this Soviet technology in America's 
networks instead of having end to end and having everyone be 
identified? I would love to know that everybody who went into 
the Internet was part of what Microsoft brilliantly calls a 
trusted bubble. I want for the U.S. Federal Government and all 
of its commercial providers of services to be inside the 
trusted bubble and leave the people who don't watch their 
hackers and want anonymity to be in the untrusted bubble.
    Chairman Tom Davis. Plus, the rest of the world is 
innovating off an IPv6 model. They are getting new products off 
that and we are still sitting here with the Russian telephone. 
Is that your point?
    Mr. Lightman. Yes. Also, it is important to say IPv6 is 
only about 20 percent finished. There are hundreds of what are 
called RFCs which still have to be decided on and the U.S. 
Government has made no more than five comments in the last 
decade of what it wants and doesn't want. We have checked out 
and gone brain dead about participating in those standards 
efforts.
    There was one in particular the gentleman before mentioned 
which is the sensor nets for doing nuclear hazardous materials. 
That is what they are discussing right now, how do you do ultra 
low power, ultra low bandwidth sensors because you don't want 
to put a lot of power into billions of sensors. There is no 
government participation. There is not even any government 
contractor. We have just abandoned this which leaves it other 
governments to go and monkey with it.
    Chairman Tom Davis. Thank you all very much. This has been 
a great hearing. I think other committees will be looking at 
this as well but we have the responsibility for 
intragovernment, within the Government itself as we move 
forward. This has been very, very helpful.
    Thank you very much and the hearing is adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Jon C. Porter and Elijah 
E. Cummings and additional information submitted for the 
hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T2510.076

[GRAPHIC] [TIFF OMITTED] T2510.073

[GRAPHIC] [TIFF OMITTED] T2510.074

[GRAPHIC] [TIFF OMITTED] T2510.075

[GRAPHIC] [TIFF OMITTED] T2510.077

[GRAPHIC] [TIFF OMITTED] T2510.078

                                 <all>

</pre></body></html>
